NO. __________

IN THE
SUPREME COURT OF THE UNITED STATES
PHILIP ANTICO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition For Writ of Certiorari
To The United States Court of Appeals
For The Eleventh Circuit
APPENDIX TO PETITION FOR WRIT OF
CERTIORARI

NICOLE NICOLETTE MACE, ESQ.
The Law Offices of Curt Sanchez, P.A.
Attorney for the Petitioner
Florida Bar No. 0017415
330 CLEMATIS STREET SUITE 209
WEST PALM BEACH, FL 33401
PH (561)758-5407
Email: nicole@nicolenicolettelaw.com

i
TABLE OF CONTENTS
APPENDIX A - Order of the United States Court of
Appeals for the Eleventh Circuit on Petition(s) for
Rehearing and Petition(s) for Rehearing En Banc
(Oct. 23, 2019)…..,……...……………………………....1a
APPENDIX B - Opinion of the United States Court
of Appeals for the Eleventh Circuit (Aug. 14, 2019)..3a
APPENDIX C - Order of the United States District
Court for the Southern District of Florida Denying
Sergeant Antico’s Motions for Judgment of Acquittal
and for a New Trial (January 12, 2018)……...….....58a
APPENDIX D - Federal Circuit Courts Jury
Instructions to a Deadlocked Jury…………………65a
First Circuit 6.06 Charge to a Hung
Jury…................................................……….65a
Third Circuit 9.05 Deadlocked Jury – Return
for Deliberations.............…………………..…68a
Fourth Circuit “Allen” Charge....……………69a
Fifth Circuit 1.45 Modified “Allen” Charge..70a
Sixth Circuit 9.04 Deadlocked Jury………...72a
Seventh Circuit 7.03 Unanimity/Disagreement
Among Jurors………...............……………….74a

ii
Eight Circuit 10.02 Duty to Deliberate (“Allen”
Charge)………...............………………………75a
Ninth Circuit 7.7 Deadlocked Jury….......….77a
Tenth
Circuit
1.42
Modified
“Allen”
Instruction.................................................…78a
Eleventh
Circuit
T-5
Modified
Allen
Charge…................................................……80a

1a
APPENDIX A
[Filed October 23, 2019]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10972-AA

UNITED STATES OF AMERICA,
Plaintiff- Appellee
Cross Appellant,
versus
PHILIP N. ANTICO,
Defendant - Appellant
Cross Appellee.

Appeal from the United States District Court
for the Southern District of Florida

ON PETITION(S) FOR REHEARING
PETITION(S) FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR,
BRANCH, Circuit Judges.

NEWSOM,

AND

and

2a
PER CURIAM:

The Petition for Rehearing En Bane is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
bane. (FRAP 35) The Petition f9r Panel Rehearing is
also denied. (FRAP 40)
ENTERED FOR THE COURT:

ORD-46

3a
APPENDIX B
[Filed August 14, 2019]
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10772

D.C. Docket No. 9:17-cr-80102-RLR-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee
Cross Appellant,
versus
MICHAEL C. BROWN,
Defendant-Appellant
Cross Appellee.
No. 18-10972

D.C. Docket No. 9:17-cr-80102-RLR-4

4a
UNITED STATES OF AMERICA,
Plaintiff-Appellee
Cross Appellant,
versus
PHILIP N. ANTICO,
Defendant-Appellant
Cross Appellee.
Appeals from the United States District Court for
the Southern District of Florida

(August 14, 2019)
Before WILLIAM PRYOR, NEWSOM, and BRANCH,
Circuit Judges. WILLIAM PRYOR, Circuit Judge:
The main issue presented by these consolidated
appeals is whether sufficient evidence supports the
convictions of Michael Brown for deprivation of rights
under color of law, 18 U.S.C. § 242, and of Philip
Antico for obstruction of justice, id. § 1512(b)(3), for
offenses involving an incident of police brutality and
a later coverup. Brown was one of several police
officers who assaulted the occupants of a vehicle that
led the officers on a high-speed chase. After the
incident, Brown and the other officers filed reports
that omitted most of the details about how they

5a
punched and kicked the occupants. Antico supervised
many of these officers, and after a video of the
incident came to light, he had his subordinates
substantially change their reports to better reflect
what happened as recorded on the video.
When agents of the Federal Bureau of Investigation
interviewed Antico about the incident, he gave
misleading answers that concealed that his
subordinates’ reports had been changed. At separate
jury trials, Brown was convicted of deprivation of
rights under color of law for his role in the assault,
and Antico was convicted of obstruction of justice. At
sentencing for both defendants, the district court
rejected the government’s argument that their
Sentencing Guidelines ranges should be calculated
using aggravated assault as the underlying offense.
The district court sentenced Brown and Antico to
downward-variance sentences of three years’
probation. Brown’s and Antico’s primary challenge is
to the sufficiency of the evidence, and the government
cross-appeals their sentences. Because there is
sufficient evidence to support the convictions and no
other reversible errors occurred related to either trial,
we affirm the convictions. But because it is unclear
whether the calculation of each defendant’s guideline
range rested on a factual finding infected by legal
error, we vacate Brown’s and Antico’s sentences and
remand for resentencing.
I. BACKGROUND
We divide our background discussion in three parts.
First, we describe the facts of the assault and the

6a
coverup. Second, we discuss the prosecution of Brown.
Third, we discuss the prosecution of Antico.
A. The Facts.
In the early morning of August 20, 2014, Officer
Justin Harris of the Boynton Beach Police
Department tried to perform a traffic stop of a vehicle
in which “B.H.” was the driver and “J.B.” and “A.H.”
were passengers. B.H. refused to stop as directed but
did not otherwise attempt to evade the officer, so
Harris continued following him. As B.H. approached
an entrance to the highway, his vehicle struck an
officer who was on foot. A high-speed chase involving
several officers, including Officer Michael Brown,
ensued. During the chase, the officers heard over the
radio that B.H. had intentionally struck an officer
with his car. After B.H. turned onto a residential
street, Brown rammed the suspect vehicle and forced
it to stop. A group of officers, including Brown, Harris,
Ronald Ryan, and several others, approached the
vehicle with their guns drawn.
Brown and several other officers then assaulted the
vehicle’s occupants. Brown was one of the first to
reach the vehicle, and he moved toward the front
passenger door. Within seconds of reaching the door,
he opened it and repeatedly punched and kicked the
front-seat passenger, J.B. Officers Harris and Ryan
arrived seconds later, and they also repeatedly struck
J.B. While J.B. was still in the car with his seatbelt
on, Brown attempted to use his Taser against him,
twice pulling the trigger and ejecting the Taser’s
probes. After dragging B.H. and A.H. from the

7a
vehicle, other officers repeatedly struck and kicked
them. While the assault was occurring, a Palm Beach
County Sheriff’s Office helicopter flying overhead
recorded the incident.
Two of the vehicle’s occupants sustained injuries
during the assault. B.H. suffered severe lacerations to
his head and face and bruising that caused his eyes to
swell shut. J.B. also suffered severe bruising and
lacerations on the face.
Sergeant Antico, the direct supervisor of Brown,
Harris, and Ryan, was not at the scene of the assault.
During the chase, he monitored events on the radio,
and he stopped to attend to the injured officer. But he
saw B.H. at the hospital the night of the incident and
was aware of his injuries. And he expected his officers
to document the strikes they had used. Antico left for
a scheduled vacation from August 20 to August 27, so
he did not review the involved officers’ reports until
he returned.
Hours after the incident but before they learned about
the video from the police helicopter, the involved
officers—including Brown, Harris, and Ryan—
submitted officer reports about the incident. Boynton
police officers are trained that an officer report is the
primary document for reporting the details about an
officer’s use of force. An officer report should include
a narrative account that recounts the types of force an
officer used and the circumstances that justified their
use. For example, if an officer struck and kicked a
suspect, he would be expected to include those details
in his officer report.

8a
Five of the involved officers failed to accurately record
their use of force in their officer reports. Brown wrote
in his report that he used a Taser against J.B. after
J.B. ignored loud verbal commands to exit the vehicle,
but he did not describe striking or kicking J.B. Ryan
wrote in his report that after Brown used his Taser
against J.B. for failing to exit the vehicle, J.B.
complied and was handcuffed. Ryan failed to note that
he had repeatedly punched J.B. Harris wrote in his
report that when he arrived at the vehicle, Brown and
Ryan were struggling with J.B., who refused to exit
the vehicle or show the officers his hands. Harris
stated that he then used his Taser against J.B., which
allowed the officers to extract J.B. from the vehicle,
but that he had to use his Taser a second time after
J.B. continued to resist arrest. Harris did not mention
that he had punched J.B. In addition, two other
officers failed to fully record their use of punches and
kicks against B.H.
The involved officers also filed use-of-force reports. A
use-of-force report is an administrative record that
the Boynton Beach Police Department uses to compile
annual statistics on use-of-force incidents. It is a twopage form on which an officer checks boxes for the
general types of force used. The form also instructs
that the officer “must” include in his offense report
“[a]ll . . . details of the arrest,” the circumstances that
“led [the officer] to believe force was necessary,” and
the “[t]ypes of force used and [its] effects.” Unlike
officer reports, which are the official records that the
Boynton Police Department may share with the State
Attorney’s Office or with the public, use-of-force

9a
reports are internal to the Boynton Police
Department. Boynton officers are trained that
checking a box on the use-of-force report is not a
substitute for recording the type of force used in the
officer report. Five of the involved officers, including
Brown, Harris, and Ryan, filed use-of-force reports
that checked a box for “[b]lows with hands/fists/feet
and other body parts.”
After Antico returned to work on August 27, he
obtained the helicopter video and watched it with
Brown. Antico then began reviewing the officer
reports that were submitted and validated as
complete. He rejected those reports that did not
record strikes or kicks against J.B. and B.H. Antico
returned Harris’s and Ryan’s officer reports, allowing
them to change their reports to include that they
struck J.B. Ryan’s amended report also included
several new allegations: that J.B. appeared to be
reaching for a weapon before Brown used his Taser;
that J.B. refused to surrender his hands for cuffing
after he was pulled from the vehicle; and that Ryan
had then “delivered 3 to 4 knee strikes to [J.B.]’s right
thigh.” After viewing the video, Brown changed his
report to include that he struck J.B. several times
with a closed fist after J.B. refused to comply with
loud verbal commands to place his hands on the
dashboard, and Brown added that he used a Taser
after J.B. still refused to comply. Brown continued to
omit that he kicked J.B. Antico also returned reports
for two other officers to allow them to add that they
struck B.H. An analysis of the electronic metadata of
the reports—referred to at trial as the “digital audit

10a
trail”—revealed that Antico rejected officer reports
eleven times in the 29 hours after watching the
helicopter video, including rejecting reports by Harris
and Ryan several times each.
After the officers made these changes to their reports,
Antico approved and transmitted them to Boynton’s
chief of police, Jeffrey Katz. After Chief Katz reviewed
all the evidence regarding the incident, he referred
the matter to state and federal authorities to
determine whether the officers violated any laws.
In February 2015, agents from the Federal Bureau of
Investigation interviewed Antico. At that time, both
Antico and the Bureau agents were unaware that the
reporting system for the police department retained a
digital audit trail of the changes that the officers
made to their officer reports. During the interview,
Antico recalled numerous details of the incident,
which he referred to as “the most critical incident [he
had] been involved in.” For example, his recollection
of the details of the high-speed chase was extensive,
covering over fifty transcript pages, and included
details about the original call from the officer who
tried to stop the suspect vehicle, which officers were
involved in the pursuit, and the direction and streets
the suspect vehicle was traveling on. He also admitted
that he had watched the helicopter video with Brown
and affirmed that he read every one of his
subordinates’ reports “[w]ord-for-word.”
Antico’s interview also covered the accuracy of his
subordinates’ officer reports. In responding to
questions about what would raise a “red flag” for him
about the reports, Antico repeatedly answered that

11a
the failure to record the use of strikes would be a
serious red flag, one which would warrant being
investigated by Internal Affairs. But he stressed that
the officer reports did state that the officers had
thrown punches and kicks. He failed to mention that
the officers’ initial completed and validated reports
did not disclose that conduct. When asked whether he
returned any of the reports for corrections, Antico
replied, “I’d have to check to see . . . if I rejected
anybody’s reports,” adding, “I might have rejected a
couple.” Although he had rejected eleven reports that
did not record strikes or kicks against J.B. and B.H.,
Antico told the agents that he had “never really had
an issue with. . . these guys not being accurate in their
. . . report writing” and “paint[ing] a picture of what
happened.” And he recalled that the only statement
he should have had a subordinate officer change in his
report was a “grammatical error” stating that a
suspect’s face hit the officer’s hand instead of vice
versa.
B. The Prosecution of Brown.
A grand jury charged Officers Brown, Harris, and
Ryan with deprivation of rights under color of law, 18
U.S.C. § 242, and several counts of falsification of
records, id. § 1519. In a superseding indictment, the
grand jury charged Brown with an additional count
for use of a firearm during a crime of violence, id.
§ 924(c)(1)(A)(i). Later, the district court held a joint
trial for Brown, Harris, and Ryan.

12a
The video of the incident was the government’s most
important evidence against the officers. The video
depicts Brown first disabling the suspect vehicle by
ramming it, then exiting his own vehicle and
momentarily pausing with his gun drawn and pointed
at B.H., and then moving rapidly toward the front
passenger door, immediately opening it, and
repeatedly kicking and punching J.B.
Two of the government’s witnesses testified about the
video. Chief Katz testified that, in his opinion of it, he
saw Brown come to the front passenger door, use
“some kicks,” and then “reach[] into the vehicle and
strike[] [J.B.] in the seat.” Sergeant Sedrick Aiken,
Boynton Beach Police Department’s “use-of-force”
expert, testified that the video depicts Brown kicking
J.B. and punching him while Brown had his pistol in
his hand. Aiken added that it did not look like Brown
gave J.B. any verbal commands, and he explained
that even if Brown did give commands, he did not give
J.B. time to comply before he began applying “hard
force” of punches and kicks.
Officer Patrick Monteith, one of the other officers on
the scene during the assault, testified that when he
reached the suspect vehicle, one person had been
dragged out of it but that the officers were still
swarming around the vehicle. Monteith stood in front
of the vehicle with his rifle aimed at J.B., who was
still in the front passenger seat. Monteith’s rifle was
resting on the windshield itself, and he was perhaps
“two [or] three feet” away from J.B. Monteith testified
that he could see both of J.B.’s hands throughout the
time that he was on the scene, and they were “up, they

13a
were blocking, [and] there were no closed fists.” J.B.
was also “jerking in and out of the vehicle . . . violently
one way and then the other way, back and forth.” But
these movements were not of his “own volition,” as he
“was being moved” by the officers. Monteith also
denied that J.B. ever appeared to be reaching for a
weapon. Monteith explained that when he heard
Brown beginning to activate his Taser, he observed
that J.B. was still buckled into his seat, so J.B. could
not have complied with any command to leave the
vehicle even if he had wanted to do so. Monteith
explained that he called out for someone to unbuckle
J.B., after which J.B. was removed from the vehicle.
The government also elicited testimony about the
standards that the Boynton police employ for the use
of force. Sergeant Aiken testified that Boynton police
officers are trained that when an officer encounters
“passive resistance”—which includes “not complying
with verbal commands, . . . tak[ing] flight, run[ning]
from [officers], protesting, sit[ting], grab[bing],
hold[ing on] to a chair, railing or staircase,”—he only
may use “soft control,” such as “pressure points,”
“escort procedures,” and “escort[s] . . . with come
alongs.” A passenger who refuses to get out of a car
when verbally told to do so is engaging in passive
resistance. But if an officer encounters “active
resistance”—such as when a subject is “flailing,
kicking arms and legs . . . [or] tak[ing] any fighting
stance towards the officer”—the officer may use “hard
force” to incapacitate the subject. Hard force includes
the use of a “[T]aser, baton, bean bag from a bean bag
shotgun, punches, if necessary, a punch with the fist

14a
to the soft tissue areas of the body.” In using hard
force, the officer targets “the soft tissue areas, the
quadriceps area, calf muscles, shoulder, tricep, bicep
area, [and] muscle mass areas.” Aiken also testified
that Brown had last been trained on the lawful use of
force in March 2014, five months before the incident.
Aiken then opined on whether Brown’s use of force
was reasonable based on the department’s criteria for
the use of force. He first explained that using a Taser
is not justified if a subject simply refuses to get out of
a vehicle after being given three verbal orders to exit.
Aiken also read aloud the narrative portion of
Brown’s officer report from after Brown saw the
helicopter video. Aiken affirmed that Brown’s
description of J.B. as refusing to obey verbal
commands was passive resistance and would not
justify the force that Brown admitted to using—
strikes with a closed fist to the body and the use of a
Taser. Aiken also repeatedly testified that, based on
the department’s criteria for the use of force, it was
unreasonable for Brown to punch J.B. with the gun in
his hand, to kick him, or to use a Taser against him.
Aiken also expressed concerns about the reliability of
the officer reports filed by the three defendants. Aiken
affirmed that the officers had initially omitted many
details about the level of force used and the alleged
circumstances that justified the use of force in their
reports. Aiken explained that there was no
justification for Brown to omit from his report that he
had struck a passenger with a firearm in his hand and
that he kicked him. And Aiken explained that the

15a
officers’ amended reports—which included new
details, such as allegations that J.B. appeared to be
reaching for a weapon and that he would not show the
officers his hands—suggested deception.
The defense rested without calling witnesses or
introducing any evidence. The jury convicted Brown
of deprivation of rights under color of law (count 1)
and of the use of a firearm in a crime of violence (count
2), but acquitted him of the two counts for falsifying a
police record. The jury acquitted Harris and Ryan on
all counts.
Brown moved for a judgment of acquittal
notwithstanding the verdict on the grounds of
sufficiency of the evidence as to count 1 and the legal
sufficiency of count 2. The district court granted the
motion as to count 2 but denied it as to count
1. As to count one, the district court determined that
the evidence viewed in the light most favorable to the
government was sufficient for a reasonable jury to
find that Brown’s use of hard force, including punches
and kicks, was unreasonable when faced with passive
resistance. The district court also ruled that a
reasonable jury could find that Brown’s failure to
disclose the extent of his use of force in his officer
report and his violation of departmental policy about
the use of force established his consciousness of guilt
and willfulness.
Brown also moved for a new trial on the ground that
the jury’s verdict was against “the weight of the
evidence.” He later supplemented his motion with
“newly discovered evidence”—an enhanced helicopter
video purportedly showing him reholstering his

16a
weapon before striking J.B.—that was not shown to
the jury. The district court instructed Brown to file an
amended supplement addressing how the elements
for a motion for a new trial based on newly discovered
evidence were met. See United States v. Thompson,
422 F.3d 1285, 1294 (11th Cir. 2005) (“When a
defendant discovers new evidence after trial that was
unknown to the government at the time of trial, a new
trial is warranted only if: (1) the evidence was in fact
discovered after trial; (2) the defendant exercised due
care to discover the evidence; (3) the evidence was not
merely cumulative or impeaching; (4) the evidence
was material; and (5) the evidence was of such a
nature that a new trial would probably produce a
different result.” (citation and internal quotation
marks omitted)). Brown filed a memorandum
acknowledging that the video did not constitute
“newly discovered evidence” under Federal Rule of
Criminal Procedure 33(b)(1), but he argued that the
district court should consider it anyway in deciding
whether to grant his motion in “the interests of
justice.” The government replied that Brown could
not rely on the enhanced video in his motion for a new
trial because he failed to introduce it at trial and that,
in any event, the video did not support his contention
that he reholstered his weapon.
The district court denied Brown’s motion for a new
trial. The district court first concluded that it was
limited to evaluating record evidence, which did not
include the enhanced video. The district court then
observed that Brown had been charged with using
several means to assault J.B. other than striking him

17a
with his gun in his hand and that the weight of the
evidence did not “preponderate[] heavily against a
finding” that Brown used unreasonable force through
one of the other means. And the district court again
ruled that sufficient evidence supported the verdict.
Using the 2016 edition of the United States
Sentencing Guidelines, the probation officer initially
calculated Brown’s total offense level as 27 based on
“aggravated assault” as the underlying offense. See
United States Sentencing Guidelines Manual §§
2A2.2, 2H1.1(a)(1) (Nov. 2016). The Guidelines define
aggravated assault as “a felonious assault that
involved . . . a dangerous weapon with the intent to
cause bodily injury (i.e., not merely to frighten) with
that weapon.” Id. § 2A2.2 cmt. n.1. The probation
officer determined that Brown’s actions amounted to
aggravated assault based in part on his use of a Taser
against J.B. Based on an offense level of 27 and a
criminal-history category of I, the probation officer
calculated Brown’s guideline range to be 70 to 87
months’ imprisonment.
Brown objected to using aggravated assault as the
underlying offense. He argued that his use of the
Taser did not qualify as aggravated assault because
he lacked the intent to cause bodily injury to J.B. The
district court sustained the objection on the ground
that “[t]here is insufficient evidence to find by a
preponderance of the evidence that Brown’s intent in
using the Taser was to cause bodily injury, rather
than to gain control over J.B.” As a result, the district
court recalculated the guideline range and
determined that the total offense level was 16,

18a
producing a sentencing range of 21 to 27 months of
imprisonment. The district court imposed a
downward-variance sentence of three years of
probation.
C. The Prosecution of Antico.
A grand jury charged Antico with obstruction of
justice related to his interview with the Bureau, 18
U.S.C. § 1512(b)(3), and two counts of falsification of
records related to his aiding and abetting of the filing
of false police reports by Officers Brown and Harris,
id. § 1519. At trial, the government’s evidence about
the incident itself and the departmental policies on
the use of force was essentially the same as at Brown’s
trial. The government primarily relied on the video of
the incident and testimony by Sergeant Aiken to
establish that the officers’ actions in assaulting the
vehicle’s occupants violated Boynton’s standards for
the use of force.
Sergeant Aiken and Chief Katz also testified about
Boynton’s policies for officer reports and use-of-force
reports. Their testimony established that an officer
must state whatever force he used in both the use-offorce report and the narrative section of the officer
report. Sergeant Aiken also affirmed that during the
thirteen years he served as training sergeant, he had
never heard of an officer not including details about
his use of force in his officer report. Katz and Aiken
explained that if an officer did omit such details, it
would be a cause for formal discipline. Both Katz and
Aiken also testified that once a report is “completed”

19a
and “validated” by an officer, it is final and is not a
draft report. Aiken testified that it would be unusual
for a supervisor to review an officer report and send it
back multiple times for revisions for a subordinate
failing to include important details about his use of
force. He stated that, in his experience, he had never
seen a report sent back for three or more substantive
revisions. And he testified that, if a shift officer like
Antico sent back multiple officer reports for several
rounds of revisions, he would remember that event.
The government also elicited testimony about the
digital audit trail of the officer reports. Douglas
Solomon, who was responsible for the Boynton Beach
Police Department’s information technology systems,
testified that the digital audit trial revealed that
Antico had rejected eleven reports in the 29 hours
after he viewed the police helicopter video, including
rejecting reports by Officers Ryan and Harris three
times each.
The government also called Stuart Robinson,
formerly an agent of the Bureau, to testify about the
investigation of the incident and about Antico’s
interview with the Bureau. Robinson explained that
when he and other Bureau agents first saw the video
of the incident, they “were stunned by what [they]
saw.” The agents requested all reports and all other
evidence that had been gathered by the Boynton
police about the incident. Eventually, the agents
began interviewing people involved in the incident,
including Antico.
The government played a video of Antico’s interview,
and Robinson highlighted each of Antico’s misleading

20a
statements or omissions. Robinson testified that
Antico’s misleading statements hindered the
investigation because they gave the misimpression
that the involved officers’ word could be trusted and
that their reports were credible. Robinson also
explained that, outside the digital audit trail, there
was no visible way to detect that the reports had been
changed.
The defense rested without calling witnesses or
introducing any evidence. In his closing argument,
Antico stressed that his statements to the Bureau
agents reflected his bad memory and not an intent to
mislead.
After several hours of deliberating, the jury sent the
court a note stating, “Your Honor, we as a jury have
reached a verdict on two counts. On the third we
cannot agree. We sincerely request your insight on
this matter.” The district court then conferred with
counsel, and Antico’s counsel proposed that the jury
be sent home for the night to continue deliberating in
the morning. He added, “[i]f they still indicate they
are deadlocked after an hour or so, at that point read
an Allen charge to them.” See Allen v. United States,
164 U.S. 492 (1896) (holding that a trial court may
encourage a deadlocked jury to continue deliberating
provided it does so noncoercively). After the
government agreed to this suggestion, the district
court asked for confirmation that, if they received
another note about the jury deadlocking, the parties
desired the district court to read “the modified Allen
charge,” to which defense counsel replied, “Correct.”
The district court then told the jury to break for the

21a
evening and return the following morning to continue
deliberating. Before adjourning for the day, the
district court recommended that both counsel should
review “T-5, the modified Allen charge,” referring to
the instruction from this Circuit’s 2016 Pattern Jury
Instructions. See Eleventh Circuit Pattern Jury
Instructions (Criminal Cases), Trial Instruction 5, at
685–86 (2016). The following morning, the jury sent
the district court a second note that read, “Your
Honor, we, the jury, are not able to agree on one count.
No amount of time, talk, contemplation or discussion
of the facts provided shall result in a unanimous
decision.” In discussing the note with counsel, the
district court explained that it could have the jury
return a partial verdict for those counts on which the
jury agreed, or it could give the modified Allen charge.
The following colloquy then ensued:
[Assistant United States Attorney]: Your Honor, we
believe at this point the Court should give the
modified Allen charge in T-5. The Government is not
opposed to a partial verdict, but I believe Defense
counsel does not agree, so that is not an option.
The Court: So, the Government would bring the jury
in, acknowledge the note and read T-5, the modified
Allen charge, and send them back.
[Assistant United States Attorney]: Yes, your Honor.
The Court: Defense?
[Defense Counsel]: That is my request.

22a
The district court replied, “Okay, then I will bring the
jury in and do that,” after which it gave the modified
Allen charge.
After about an hour of deliberation, the jury sent the
court a third note stating that the district court’s
“comments were/are material,” and that as a result, it
had reached a verdict. The jury found Antico guilty of
the obstruction-of justice- count, but not guilty of the
two falsification-of-records counts.
Antico moved for a judgment of acquittal
notwithstanding the verdict on the ground of
sufficiency of the evidence. He again argued that the
evidence was insufficient for a reasonable jury to find
that he knowingly engaged in misleading conduct
because his statements or omissions to the agents
were best explained by his faulty memory. Antico also
moved for a new trial on the ground that the Allen
charge was “unconstitutionally coercive” because it
asked the jury to consider the costs of the trial and
possible retrial.
The district court denied both motions. As to the
sufficiency of the evidence, the district court
concluded that there was sufficient evidence for the
jury to conclude that Antico knowingly misled the
Bureau by “not disclos[ing] that he had rejected
several reports in quick succession because the
reports did not accurately reflect the use of force that
Sergeant Antico saw in the [police-helicopter] video.”
The district court also observed that Antico’s memory
of other details of the incident was “sufficient
evidence . . . demonstrat[ing] a knowing intent to
mislead the [Bureau].” As to the motion for a new

23a
trial, the district court ruled that its Allen charge, the
language of which came from the Eleventh Circuit
Pattern Jury Instructions, was not unduly coercive.
Months later, a juror sent Antico’s counsel an email
suggesting that jurors had voted for guilt to ensure
that someone would be held accountable for the use of
force; that their verdict reflected that certain jurors
harbored bias against police officers; and that certain
jurors bullied others to reach a verdict, including by
making fun of the complaining juror for having a
“crush” on Antico. After receiving this email, Antico
requested that the district court interview the juror in
chambers, with counsel present, to determine
whether further investigation was warranted.
The district court denied the motion to interview the
juror. It explained that Federal Rule of Evidence
606(b) and our Circuit’s precedent establish “very
stringent limitations” on its authority to question
jurors about their deliberations and to use juror
testimony to impeach a verdict. As for the allegation
that some jurors voted guilty to hold someone
accountable, the district court ruled that “[t]he juror’s
vague allegations . . . [were] not clear, strong,
substantial and incontrovertible evidence that a
specific, nonspeculative impropriety occurred during
the deliberations.” And as to the allegation of bias
against police officers, the district court explained
that this allegation did not satisfy the narrow
exception to the no-impeachment rule that applies to
racial bias. See Pena-Rodriguez v. Colorado, 137 S. Ct.
855 (2017). And for the allegation of bullying, the
district court explained that this allegation

24a
“describe[d] nothing more than typical features of
jury deliberations” and was “insufficient to violate the
no impeachment rule.”
One month later, Antico learned that a second juror
had spoken to the spouse of an Assistant United
States Attorney who was not involved in the case to
discuss the juror’s experience. Antico moved the
district court to compel the government to disclose
what the second juror said to the spouse, arguing that
it was akin to Brady material, see Brady v. Maryland,
373 U.S. 83 (1963), and must be provided to defense
counsel to allow him to evaluate the disclosure and
determine whether to file a motion.
The district court denied the motion. It determined
that Antico’s motion to compel “fail[ed] to present any
evidence that impropriety ha[d] occurred,” but
instead “simply state[d] that a juror spoke with the
wife of an [Assistant United States Attorney] about
his or her experience as a juror.”
As in Brown’s guideline calculation, the probation
officer initially calculated Antico’s total offense level
based on “aggravated assault” as the underlying
offense. See U.S.S.G. §§ 2A2.2, 2J1.2, 2X3.1. Based on
an offense level of 21 and a criminal-history category
of I, the probation officer calculated Antico’s guideline
range to be 37 to 46 months of imprisonment.
Antico objected that his guideline calculation should
use falsification of reports as the underlying offense
and not aggravated assault. Relying on its ruling at
Brown’s sentencing that Brown’s use of the Taser did
not constitute aggravated assault, the district court
sustained the objection. The district court then

25a
recalculated the guideline range and determined that
the total offense level was 14, producing a sentencing
range of 15 to 21 months’ imprisonment. The district
court imposed a downward-variance sentence of three
years of probation.
II. STANDARDS OF REVIEW
Three standards of review govern these appeals. We
review the sufficiency of the evidence de novo,
“view[ing] the evidence in [the] light most favorable
to the jury verdict and draw[ing] all inferences in its
favor.” United States v. Reeves, 742 F.3d 487, 497
(11th Cir. 2014). We also review de novo the “legal
interpretation of the sentencing guidelines” and the
“application of the sentencing guidelines to the facts.”
United States v. Cubero, 754 F.3d 888, 892 (11th Cir.
2014). But “[w]e review for clear error the
[underlying] factual findings.” Id. We review for
abuse of discretion a decision to give an Allen charge,
see United States v. Woodard, 531 F.3d 1352, 1364
(11th Cir. 2008); a decision not to hold an evidentiary
hearing to investigate alleged juror misconduct after
the end of trial, see United States v. Venske, 296 F.3d
1284, 1290 (11th Cir. 2002); and a denial of a
defendant’s motion for a new trial based on the weight
of the evidence, see United States v. Martinez, 763
F.2d 1297, 1312 (11th Cir. 1985).
III. DISCUSSION

26a
We divide our discussion in three parts. First, we
address the issues related to Brown’s trial. Second, we
address the issues related to Antico’s trial. Third, we
discuss the sentencing issues for both defendants. We
conclude that sufficient evidence supports both
officers’ convictions and that no other reversible
errors occurred related to either trial. But we also
conclude that Brown and Antico must be resentenced
because it is unclear whether, in calculating the
defendants’ guideline ranges, the district court made
factual findings infected by legal error.
A. The Issues Related to Brown’s Trial.
Brown raises two issues for our review. First, he
challenges whether sufficient evidence supports his
conviction. Second, he argues that the district court
abused its discretion in denying his motion for a new
trial.
1. Sufficient Evidence Supports Brown’s Conviction.
To convict Brown of deprivation of rights under color
of law, 18 U.S.C. § 242, the government had to prove
that Brown acted “(1) willfully and (2) under color of
law (3) to deprive a person of rights protected by the
Constitution or laws of the United States.” United
States v. House, 684 F.3d 1173, 1198 (11th Cir. 2012)
(citation and internal quotation marks omitted).
When a police officer is charged with using excessive
force in making an arrest, the constitutional right at
issue is the right under the Fourth Amendment to be
free from unreasonable seizures. See Graham v.
Connor, 490 U.S. 386, 394 (1989). Whether an officer

27a
violated this right depends on “whether the officer[’s]
actions are ‘objectively reasonable’ in light of the facts
and circumstances confronting [him], without regard
to [his] underlying intent or motivation.” Id. at 397.
Brown argues that insufficient evidence supports his
conviction for two reasons. First, he argues that his
use of force was reasonable because J.B. resisted with
“active force.” Second, he contends that there was
insufficient evidence of Brown’s willfulness. Neither
argument has any merit.
a. Brown’s Use of Force Against J.B. Was Objectively
Unreasonable. “Determining whether the force used
to effect a particular seizure is reasonable under the
Fourth Amendment requires a careful balancing of
the nature and quality of the intrusion on the
individual’s Fourth Amendment interests against the
countervailing governmental interests at stake.” Id.
at 396 (citation and internal quotation marks
omitted). In making this determination, a jury must
“weigh the quantum of force employed against the
severity of the crime at issue; whether the suspect
poses an immediate threat to the safety of the officers
or others; and whether the suspect actively resisted
arrest or attempted to evade arrest by flight.”
Dukes v. Deaton, 852 F.3d 1035, 1042 (11th Cir. 2017)
(citation and internal quotation marks omitted). It
must consider an officer’s actions “from the
perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight,” Kesinger ex
rel. Estate of Kesinger v. Herrington, 381 F.3d 1243,
1248 (11th Cir. 2004), and recognize that “[t]he
calculus of reasonableness must embody allowance

28a
for the fact that police officers are often forced to make
split- second judgments—in circumstances that are
tense, uncertain, and rapidly evolving—about the
amount of force that is necessary in a particular
situation,” Graham, 490 U.S. at 396–97.
In considering the “severity of the crime at issue,” the
jury looks to the crime the victim was suspected to
have committed when the force was used. See, e.g.,
Stephens v. DeGiovanni, 852 F.3d 1298, 1321–22
(11th Cir. 2017) (judging whether the officer’s use of
force was excessive in the light of the nonviolent
misdemeanors with which the plaintiff-victim was
charged); Oliver v. Fiorino, 586 F.3d 898, 908 (11th
Cir. 2009) (explaining that the repeated use of a Taser
was “utterly disproportionate” where the plaintiffvictim “was not accused of or suspected of any crime,
let alone a violent one”); Galvez v. Bruce, 552 F.3d
1238, 1243 (11th Cir. 2008) (determining that the
charges for nonviolent misdemeanors against the
victim of an assault by an officer weighed in favor of
ruling that the force used against him was excessive).
“More force is appropriate for a more serious offense
and less force is appropriate for a less serious one.”
Salvato v. Miley, 790 F.3d 1286, 1293 (11th Cir. 2015)
(alteration adopted) (citation and internal quotation
marks omitted). Nonviolent misdemeanors are
“crime[s] of ‘minor severity’ for which less force is
generally appropriate.” Reese v. Herbert, 527 F.3d
1253, 1274 (11th Cir. 2008); see also Stephens, 852
F.3d at 1321–22; Galvez, 552 F.3d at 1243.
Ample evidence supports the jury’s finding that
Brown used excessive force against J.B. Brown does

29a
not dispute that he repeatedly struck, kicked, and
twice used a Taser against J.B. In all versions of his
officer report, he acknowledged that the only
circumstance justifying his use of force was J.B.’s
failure to comply with loud verbal commands—either
to exit the vehicle or to place his hands on the
dashboard. But a reasonable jury could have found
that Brown either did not give any verbal commands
to J.B. or that he did not give J.B. the opportunity to
comply with his commands before using severe force.
J.B. also was charged with resisting arrest without
violence. This is not a serious crime for which severe
force is warranted. See Stephens, 852 F.3d at 1321–
22. And no evidence at trial suggested that a
reasonable officer in Brown’s position would have
suspected that J.B.—a mere passenger—was
responsible for the more serious crimes related to the
high- speed chase or for using the suspect vehicle to
hit a police officer. A reasonable juror could also have
found that an officer in Brown’s position, knowing
that J.B. had only been a passenger in the suspect
vehicle and observing J.B. sitting passively in his seat
with his seatbelt fastened, would not have perceived
him as an immediate threat. And the evidence was
also sufficient for the jury to find that a reasonable
officer in Brown’s position would not have assumed
that J.B. was “actively resisting arrest or attempting
to evade arrest by flight.” Id. at 1321 (quoting
Graham, 490 U.S. at 396). Brown began using force
against J.B. within seconds of arriving at the suspect
vehicle. The government also presented evidence that
Brown gave no orders that J.B. could possibly have

30a
followed before Brown began using force. In this
circumstance, the jury had more than a sufficient
basis to find that it was unreasonable for Brown to
use punches, kicks, and a Taser against a
nonresisting passenger like J.B.
Before moving on, we address one point about the
government’s position on Brown’s use of force. In its
brief and at oral argument, the government implied
that because the testimony at trial suggested that
Boynton’s policies on the use of force reflected the
constitutional reasonableness standard, the jury
could have inferred that Brown’s violations of those
policies necessarily amounted to a constitutional
violation. But the district court correctly instructed
the jury that an officer’s violation of a police
department’s policies on the use of force would not by
itself establish that his actions amounted to excessive
force. We reject the proposition that we can ever
substitute a police department’s standards on the use
of force for the constitutional standard—even when
the policies attempt to mirror the constitutional
reasonableness standard. Although the jury may
consider a department’s policies as relevant evidence,
district courts should follow the example here of using
limiting instructions to prevent the jury from
conflating a violation of departmental policy with a
violation of the Constitution.
b. Brown Willfully Used Excessive Force Against J.B.
To establish that a defendant acted “willfully” in
committing a deprivation of rights under color of law,

31a
the government must prove that the defendant
“act[ed] with ‘a specific intent to deprive a person of a
federal right made definite by decision or other rule of
law,’ or ‘in open defiance or in reckless disregard of a
constitutional requirement which has been made
specific and definite.’” House, 684 F.3d at 1199–1200
(quoting Screws v. United States, 325 U.S. 91, 103,
105 (1945) (plurality opinion)). A defendant need not
have been “thinking in constitutional terms,” so long
as his “aim was not to enforce local law but to deprive
a citizen of a right and that right was protected by the
Constitution.” Screws, 325 U.S. at 106 (plurality
opinion). And “the defendant’s subsequent conduct
may be considered if it supports a reasonable
inference as to his prior intent.” House, 684 F.3d at
1200 (alterations adopted) (citation and internal
quotation marks omitted).
The evidence here was more than sufficient for a
reasonable jury to find that Brown acted in open
defiance or reckless disregard of constitutional
limitations on the use of force. Brown’s training in the
use of force supports the jury’s finding of willfulness.
See United States v. Rodella, 804 F.3d 1317, 1337–38
(10th Cir. 2015) (holding that evidence of training a
defendant-officer received on pursuit of suspect
vehicles was relevant to whether he acted willfully in
unlawfully arresting the driver and subjecting him to
excessive force). Sergeant Aiken testified that
Brown’s actions—punching, kicking, and employing a
Taser against a passively resisting passenger—
clearly violated the department’s policies on the use
of force, and he testified that Brown had been most

32a
recently trained on the use of force five months before
the incident. The bare fact that an officer’s actions
violated his training on the use of force will not
always suggest that his actions were willful— after
all, officers must frequently make “split-second
judgments” in “tense, uncertain, and rapidly
evolving” circumstances. Graham, 490 U.S. at 397.
But where an officer’s actions so obviously violate his
training on the use of force, a jury may infer that the
violation was willful. Here, the jury could have found
that, based on his training, it would have been
obvious to Brown that he lacked the authority to
repeatedly punch and kick a passenger who presented
at most passive resistance.
The jury also could have inferred Brown’s willfulness
from his filing of police reports that sought to cover up
his actions. His initial officer report, filed only hours
after the incident, omitted that he kicked and
punched J.B. before using the Taser. Only after
viewing the helicopter video did Brown admit to
having struck J.B. several times with a closed fist.
And Brown never admitted to having kicked J.B. even
in his later reports. Based on Brown’s misleading
officer reports, the jury reasonably could have
inferred that Brown was conscious that his actions
were unlawful, but recklessly disregarded that fact in
choosing to assault J.B. Cf. House, 684 F.3d at 1202
(concluding that an officer’s repeated “attempt[s] to
conceal his actions by making false statements in his
incident reports” supported jury’s finding that he
acted willfully when he seized motorist in violation of
the Fourth Amendment).

33a
Brown responds that the shortcomings of his officer
report do not reflect a consciousness of guilt because
he checked a box in his use-of-force report stating that
he used “blows with hands/fists/feet.” But Boynton
officers are trained—and indeed, the use-of-force form
itself states—that use-of-force reports cannot
substitute for recording the extent of the use of force
in the officer report. And the evidence at trial
established that an officer in Brown’s position would
understand that failing to record the use of punches
or kicks in an officer report would be a violation of
departmental policy that could warrant formal
discipline. So the jury could have reasonably found
that Brown’s omissions from his officer report were
deliberate and reflected a knowledge that his actions
were unlawful.
2. The District Court Did Not Abuse Its Discretion in
Denying Brown’s Motion for a New Trial.
Federal Rule of Criminal Procedure 33 provides that
“[u]pon the defendant’s motion, the court may vacate
any judgment and grant a new trial if the interest of
justice so requires.” Fed. R. Crim. P. 33(a). “When
considering a motion for a new trial, the district court
may weigh the evidence and consider the credibility
of the witnesses.” United States v. Albury, 782 F.3d
1285, 1295 (11th Cir. 2015) (citation and internal
quotation marks omitted). A motion for a new trial
based on the weight of the evidence is “not favored”
and is reserved for “really exceptional cases.”
Martinez, 763 F.2d at 1313 (citation and internal

34a
quotation marks omitted). For a new trial to be
warranted, “[t]he evidence must preponderate heavily
against the verdict, such that it would be a
miscarriage of justice to let the verdict stand.” Id.
Although the standards for granting a motion for
acquittal, see Fed. R. Crim. P. 29, and a motion for a
new trial under Rule 33 are similar, they are not
identical. A district court may grant a new trial based
on the weight of the evidence even if the evidence is
sufficient to convict in the “rare” “case in which the
evidence of guilt although legally sufficient is thin
and marked by uncertainties and discrepancies.”
Butcher v. United States, 368 F.3d 1290, 1297 n.4
(11th Cir. 2004) (citation and internal quotation
marks omitted); accord Martinez, 763 F.2d at 1313
(“[C]ourts have granted new trial motions based on
weight of the evidence only where the credibility of
the government’s witnesses had been impeached and
the government’s case had been marked by
uncertainties and discrepancies.”).
Brown does not argue that the government’s case
against him was “marked by uncertainties and
discrepancies” or that the credibility of the
government’s witnesses was impeached at trial.
Instead, he stresses that the inconsistency between
his conviction and the acquittals of his codefendants
warrants a new trial, but this argument is a
nonstarter. Brown concedes that inconsistency in a
jury’s verdict concerning several defendants—
convicting some but acquitting others—is not a
ground for acquittal under Rule 29. See United States

35a
v. Wright, 63 F.3d 1067, 1074 (11th Cir. 1995); see also
3 Charles A. Wright et al., Federal Practice and
Procedure § 514 (4th ed. Apr. 2019 update) (“[T]he
jury need not act rationally in regard to verdicts of
acquittal and conviction on several counts or
concerning several defendants.” (emphasis added)).
And we have explained that where a defendant’s
“arguments regarding . . . inconsistent verdicts [fail]
in the context of his motion for judgment of
acquittal[,] [i]t follows a fortiori that those arguments
fail under the abuse of discretion standard we
employ” in evaluating a motion for a new trial.
Albury, 782 F.3d at 1295. Because Brown’s argument
about inconsistent jury verdicts would fail to justify
his acquittal, the district court did not abuse its
discretion in rejecting his motion for a new trial on
that basis.
Brown also argues that the newly discovered
enhanced video of the incident should have been
considered when deciding whether “the interests of
justice” require a new trial for a verdict against the
weight of the evidence, but we disagree. A district
court considering whether a verdict is against the
weight of the evidence “sits as a ‘thirteenth juror,’”
Tibbs v. Florida, 457 U.S. 31, 42 (1982); see also
United States v. Sinclair, 438 F.2d 50, 51 n.1 (5th Cir.
1971), and evaluates the evidence presented at trial.
Evidence that the defendant either knew about
during trial but failed to introduce or discovered only
after trial falls outside the scope of such motions.
When a defendant seeks a new trial based on evidence
discovered after trial, a motion under Rule 33(b)(1)

36a
provides the only vehicle for considering it, and a
defendant must satisfy the requirements of that Rule.
See Thompson, 422 F.3d at 1294. And when, as here,
a defendant expressly concedes that the new evidence
does not constitute “newly discovered evidence”
within the meaning of Rule 33(b)(1), he may not
disguise what is in substance a legally insufficient
motion as one challenging whether the verdict is
against the weight of the evidence. So the district
court correctly disregarded the enhanced video in
evaluating Brown’s motion for a new trial.
In any case, the video would not have made a
difference. Brown argues that the video would reveal
that “[t]he sole factor which set [his] actions apart
from the [actions] of his acquitted co-defendants”—
that Brown allegedly “held a gun in his hand when
administering hard force”—never occurred, as the
video purportedly establishes that Brown reholstered
his weapon. Assuming that Brown is right about the
video, there were other obvious factors that set
Brown’s use of force apart from that of his
codefendants. For example, Brown was the only one
to kick or use his Taser against J.B. As the district
court concluded, Brown’s immediate and total use of
hard force in response to J.B.’s passive resistance
justified his conviction regardless of whether he had
a gun in his hand when he punched J.B. So even if the
district court erred in failing to consider the enhanced
video, the error was harmless.
B. The Issues Related to Antico’s Trial.

37a
We divide our discussion of the issues related to
Antico’s trial in three parts. First, we explain that
sufficient evidence supports Antico’s conviction.
Second, we explain that Antico invited any error in
giving an Allen charge. Third, we explain that the
district court did not abuse its discretion in declining
to investigate juror misconduct or to compel the
disclosure of the contents of a juror’s post-trial
conversation, and that the cumulative effect of any
errors did not deny Antico a fair trial.
1. Sufficient Evidence Supports Antico’s Conviction.
To convict Antico of obstruction of justice, 18 U.S.C. §
1512(b)(3), the government had to prove that Antico
(1) “knowingly and willfully . . . engage[d] in
misleading conduct toward another person, (2) with
the intent to hinder, delay or prevent the
communication of information to a federal official, (3)
about the commission or the possible commission of a
federal crime.” United States v. Ronda, 455 F.3d 1273,
1284 (11th Cir. 2006) (citation and internal quotation
marks omitted). “[M]isleading conduct” is defined to
include “knowingly making a false statement” and
“intentionally omitting information from a statement
and thereby causing a portion of such statement to be
misleading, or intentionally concealing a material
fact, and thereby creating a false impression by such
statement.” 18 U.S.C. § 1515(a)(3)(A)–(B).
The government identifies three types of false
statements or omissions that support Antico’s
conviction: (1) his repeated statements falsely

38a
vouching for the credibility of his officers and stating
that he had never had an issue with “these guys not
being accurate” in their officer reports; (2) his
omission of the fact that several of his subordinates’
officer reports that were submitted and validated as
complete did not fully or accurately reflect the force
they used against J.B. and B.H.; (3) and Antico’s
omission of the fact that he returned eleven officer
reports over a span of 29 hours so that his
subordinates could change them to be consistent with
the video.
Antico does not deny that his statements or omissions
were, in fact, misleading to the Bureau agents, but he
argues that they reflect only that he “could not
remember or recall exact events.” He challenges both
whether he knowingly engaged in misleading conduct
and whether any misstatement or omissions were
made with the intent to hinder the investigation of
the police officers’ assault.
There was ample evidence for a reasonable juror to
find that Antico’s statements or omissions reflected
an intentional effort to mislead. A reasonable jury
could infer Antico’s intent from the stark difference in
his memory about the incident on the one hand and
his inability to recall basic facts about his
subordinates’ officer reports on the other. The
transcript of Antico’s account of the incident covers
over fifty pages and includes minute details, such as
the direction of travel, the streets, and the officers
involved in the high-speed chase, as well the precise
words said by many of the officers. That Antico’s
memory was excellent in recalling the details of the

39a
incident but failed him utterly when his interview
turned to the accuracy of his subordinates’ officer
reports about that incident supports an inference that
his claims of forgetfulness were false.
A reasonable jury could also have found that an officer
in Antico’s position would be unlikely to forget the
shortcomings in his subordinates’ initial officer
reports. Multiple witnesses testified that Boynton
officers are trained that they must include in their
reports all relevant details about their use of force,
including whether they punched or kicked a suspect.
The testimony also established that the failure to
follow this policy could warrant formal discipline, and
Antico admitted that if he caught his subordinates
omitting details about striking or kicking a suspect, it
would be something for Internal Affairs to
investigate. Indeed, Sergeant Aiken testified that an
officer omitting major details from his report would be
a highly unusual event, as he was not aware of any
other instance of it happening in the thirteen years he
had served as training sergeant. Aiken further
testified that it would be unusual for a supervisor to
send back an officer report multiple times for
revisions for a failure to include important details
about the use of force. And Aiken testified that if a
shift officer like Antico sent back multiple officer
reports for several rounds of revisions, he would
remember having done so. Considering that Antico
rejected eleven officer reports from five officers in the
29 hours after he saw the video based on the failure
to adequately document the use of punches and kicks,
the jury reasonably could have inferred that this

40a
would have been such a memorable event for Antico
that it was implausible that he would have forgotten
it. Consider too that the nature of the incident itself
would put an officer in Antico’s position on alert that
his subordinates’ officer reports would ultimately
become important and would render him unlikely to
forget key details about them. Antico referred to the
assault as “the most critical incident I’ve been
involved in” and the one that involved the “most
force.” The brutality of the officers’ actions captured
on video is, as one witness described it, “stunn[ing].”
Chief Katz affirmed that he had “a reaction” to the
video, and explained that he “was concerned about the
content of the video” and that he “had a great deal of
questions” about the officers’ actions. The pilot of the
police helicopter that filmed the incident, Michael
Musto, testified that “[t]he video doesn’t look good”
because of “[t]he extended time it took to get [the
vehicle’s occupants] in custody with the kicking and
punching,” and he explained that this was the first
time in his career he had ever forwarded a video to a
supervisor to review. A reasonable juror hearing this
testimony and seeing the video could have inferred
that Antico would have understood the possible
ramifications for his department and his subordinates
from the incident and from the reports filed about it,
and that he would not forget the major details
surrounding the reports only six months later.
Antico responds that the jury could not determine
that he intended to mislead the Bureau because,
during his interview, he repeatedly qualified his
statements with caveats like, “I don’t remember” or

41a
“I’d have to check.” But the jury was entitled to find
that Antico’s use of these qualifying phrases was
misleading because he was not communicating
everything that he knew.
Antico also highlights three circumstances—that he
was not present at the scene of the incident, that he
went on vacation for a week afterward, and that he
was interviewed six months after the event—to
suggest that he simply forgot many of the relevant
details. To be sure, a jury could have inferred from
these details that Antico’s memory was to blame. But
we will not vacate a conviction simply because the
government did not “disprove every reasonable
hypothesis of innocence”; we instead defer to the
jury’s rational selection between “reasonable
constructions of the evidence.” United States v.
Mieres-Borges, 919 F.2d 652, 656 (11th Cir. 1990)
(citation and internal quotation marks omitted).
Because a reasonable jury could have found that
Antico’s statements and omissions were knowingly
misleading and intended to hinder the Bureau’s
investigation, we reject Antico’s invitation to secondguess the jury.
2. Antico Invited any Error in Giving the Allen
Charge.
Antico next contends that the district court plainly
erred by giving a modified Allen charge taken directly
from our 2016 Pattern Jury Instructions. See
Eleventh Circuit Pattern Jury Instructions (Criminal
Cases), Trial Instruction 5, at 685–86 (2016). He

42a
argues that the modified Allen charge is unduly
coercive because it mentions that another trial will
“serve to increase the costs to both sides.” He also
argues that certain other language from the modified
Allen charge is “confusing and causes undue pressure
on the jury” to reach a unanimous verdict.
The doctrine of invited error bars Antico’s challenge
to the Allen charge. “It is a cardinal rule of appellate
review that a party may not challenge as error a
ruling or other trial proceeding invited by that party.”
United States v. Love, 449 F.3d 1154, 1157 (11th Cir.
2006) (alteration adopted) (citation and internal
quotation marks omitted). It was Antico who first
proposed that the district court should give a
“modified Allen charge” if the jury deadlocked a
second time. After the jury deadlocked a second time,
Antico again affirmed that he wanted the district
court to give “T-5, the modified Allen charge,”
referring to the instruction from our 2016 Pattern
Jury Instructions. Because Antico invited the court to
give the modified Allen charge, he is precluded from
challenging it as error now. Although the government
has not argued that this was invited error, an
appellate court may apply the invited-error doctrine
sua sponte. See Harden v. United States, 688 F.2d
1025, 1032 n.7 (5th Cir. Unit B 1982) (explaining that
appellate courts may raise waiver sua sponte); see also
United States v. Mancera-Perez, 505 F.3d 1054, 1057
& n.3 (10th Cir. 2007) (explaining that invited error
is a kind of waiver that an appellate court may raise
sua sponte).

43a
Even if Antico did not invite the error, his challenge
has no merit. The modified Allen charge from our
2016 Pattern Jury Instructions is nearly identical to
that from our 2010 Pattern Jury Instructions, with
the exception that the 2016 version omits the words
“obviously” and “only” from language from the 2010
version stating “[o]bviously, another trial would only
increase the cost to both sides.” Compare Eleventh
Circuit Pattern Jury Instructions (Criminal Cases),
Trial Instruction 5, at 639–40 (2010), with Eleventh
Circuit Pattern Jury Instructions (Criminal Cases),
Trial Instruction 5, at 685–86 (2016). And we have
“repeatedly” held that the 2010 Pattern Jury
Instructions’ Allen charge “is appropriate and not
coercive.” United States v. Oscar, 877 F.3d 1270, 1286
(11th Cir. 2017) (citing United States v. Bush, 727
F.3d 1308, 1320 (11th Cir. 2013); Woodard, 531 F.3d
at 1364). Because the 2016 modified Allen charge is
substantially similar to the 2010 version, we are
bound by our prior precedent to uphold its language
as not inherently coercive. See United States v. Rey,
811 F.2d 1453, 1460 (11th Cir. 1987)
(explaining that we were “bound by precedent” to
affirm the use of an Allen charge where we had
previously “upheld an Allen charge that employed
very similar language” (italics added)). So we
alternatively conclude that the district court
committed no error, plain or otherwise, in giving the
modified Allen charge.

44a
3. The District Court Did Not Abuse Its Discretion in
Denying Antico’s Post-Verdict Motions Regarding
Juror Misconduct.
Federal Rule of Evidence 606(b) provides that
“[d]uring an inquiry into the validity of a verdict or
indictment, a juror may not testify about any
statement made or incident that occurred during the
jury’s deliberations; the effect of anything on that
juror’s or another juror’s vote; or any juror’s mental
processes concerning the verdict or indictment.” Fed.
R. Evid. 606(b)(1). The Rule adds, “The court may not
receive a juror’s affidavit or evidence of a juror’s
statement on these matters.” Id. This rule reflects the
“centuries old” principle—also known as the “noimpeachment rule”—that after a jury has reached its
verdict “it will not later be called into question based
on the comments or conclusions they expressed
during deliberations.” Pena-Rodriguez, 137 S. Ct. at
861. Rule 606(b) “[a]cknowledg[es] the sanctity of jury
deliberations and Lord Mansfield’s rule that ‘a
witness shall not be heard to allege his own
turpitude,’ [and] it seeks to reach an accommodation
between preserving trial by jury and ensuring a just
result in each case.” 3 Jack B. Weinstein & Margaret
A. Berger, Weinstein’s Federal Evidence § 606.04
(Mark S. Brodin ed., Matthew Bender 2d ed. 1997).
There are four exceptions to the no-impeachment
rule. Rule 606(b) provides for three: a juror may
testify about (1) whether “extraneous prejudicial
information was improperly brought to the jury’s
attention”; (2) whether “an outside influence was

45a
improperly brought to bear on any juror”; and (3)
whether “a mistake was made in entering the verdict
on the verdict form.” Fed. R. Evid. 606(b)(2)(A)–(C).
The Supreme Court has also held that a fourth
exception applies when “a juror makes a clear
statement that indicates he or she relied on racial
stereotypes or animus to convict a criminal
defendant.” Pena-Rodriguez, 137 S. Ct. at 869.
Outside these four exceptions, Rule 606(b) prohibits
inquiry into a wide range of alleged misconduct. This
prohibition includes whether a juror “misunderstood
or
disregarded
evidence,
misunderstood
or
disregarded the judge’s instructions, was confused
about the legal significance of the jury’s answers to
special interrogatories or the consequences of the
verdict, thought that the jury would be kept out
indefinitely until agreement was reached, considered
an election of the defendant not to take the stand,
believed that recommending mercy would avoid the
death penalty, was overcome by weariness or
unsound arguments of other jurors, or by a desire to
return home.” 3 Weinstein & Berger, Weinstein’s
Federal Evidence § 606.04 (footnotes omitted)
(collecting decisions). And outside of racial bias, Rule
606(b) prohibits inquiries into alleged improper
motives or prejudices of the jury. See Martinez v. Food
City, Inc., 658 F.2d 369, 373–74 (5th Cir. Unit A 1981)
(explaining that “juror testimony regarding the
possible subjective prejudices or improper motives of
individual jurors has been held to be within [Rule
606(b)’s prohibition], rather than within the exception
for ‘extraneous influences,’” as “[t]he proper time to

46a
discover such prejudices is when the jury is being
selected and p[ere]mptory challenges are available to
the attorney” (quoting United States v. Duzac, 622
F.2d 911, 913 (5th Cir. 1980)); 3 Weinstein & Berger,
Weinstein’s Federal Evidence § 606.04 (explaining
that Rule 606(b) “bars questions about jurors’
prejudice”).
“No per se rule requires the trial court to investigate
the internal workings of the jury whenever a
defendant asserts juror misconduct.” United States v.
Cuthel, 903 F.2d 1381, 1382–83 (11th Cir. 1990). For
example, where a party alleges that the jury was
subject to extrinsic influence, we have held that a
district court has a duty to investigate “only when the
party alleging misconduct makes an adequate
showing of extrinsic influence to overcome the
presumption of jury impartiality.” Id. at 1383
(quoting United States v. Barshov, 733 F.2d 842, 851
(11th Cir. 1984)); accord United States v. Cousins, 842
F.2d 1245, 1247 (11th Cir. 1988). This standard
requires that the defendant “do more than speculate;
he must show clear, strong, substantial and
incontrovertible
evidence
that
a
specific,
nonspeculative impropriety has occurred.” Cuthel,
903 F.2d at 1383 (alteration adopted) (citation and
internal quotation marks omitted). Where the
evidence presented to the district court fails to
establish that an impropriety occurred that falls
within any of the exceptions to the no-impeachment
rule, the district court is justified in declining to hold
a hearing or further inquire into the matter. See
Venske, 296 F.3d at 1290 (holding that the district

47a
court did not abuse its discretion in declining to hold
a hearing where all but two allegedly improper
statements mentioned in an affidavit concerned the
jury’s deliberative process or mental impressions, and
where the two statements did not establish that the
jury was influenced by the extrinsic facts they
related).
Antico argues that the district court abused its
discretion by failing to interview a juror who alleged
a variety of misconduct, but we disagree. The juror
first alleged that some jurors were biased because
they “used their prior misconceptions about police
officers and their feeling of someone needing to be
held accountable, where there wasn’t one bit of
evidence showing [that Antico] was guilty,” and that
some jurors made their minds up before deliberating.
But we have explained that “juror conduct during
deliberations, such as . . . statements made during
deliberations, including statements calling into
question a juror’s objectivity,” are “internal matters”
that are inadmissible under Rule 606(b). United
States v. Foster, 878 F.3d 1297, 1310 (11th Cir. 2018)
(alteration omitted) (citation and internal quotation
marks omitted); see also Martinez, 658 F.2d at 373.
Because allegations that some jurors had improper
motives or that they failed to meaningfully deliberate
do not fall within the limited exceptions to the noimpeachment rule, the district court did not abuse its
discretion in declining to investigate them further.
The juror also alleged that the three holdout jurors
were bullied into voting guilty, and she specifically
complained that some jurors made fun of her and

48a
discounted her opinion because she allegedly had a
“crush” on Antico. But we agree with the district court
that this alleged bullying is “nothing more than [a]
typical feature[] of jury deliberations,” Foster, 878
F.3d at 1310, and that it falls squarely within the noimpeachment rule. And although Antico argues that
the “crush” comment suggests gender bias by one
juror against the first juror, there are multiple
problems with Antico’s theory that this allegation
required further inquiry: neither this Court nor the
Supreme Court has ever suggested that gender bias
warrants an exception to the no-impeachment rule;
we have never held that bias of one juror against
another juror constitutes an exceptional circumstance
to the no-impeachment rule; and the statement
suggesting that the juror had a crush does not present
“clear, strong, substantial and incontrovertible
evidence” that any juror actually harbored gender
bias against Antico. Cuthel, 903 F.2d at 1383 (citation
and internal quotation marks omitted). So because
the evidence presented to the district court failed to
allege any impropriety that could possibly fall within
an exception to the no-impeachment rule, the district
court did not abuse its discretion in declining to hold
a hearing or otherwise interview the juror. See
Venske, 296 F.3d at 1290.
Antico also briefly argues that the statement that
“someone had to be held accountable” suggests “that
the jury was aware of the publicized external
information that two officers previously tried were
acquitted so this jury decided to find Antico guilty.”
Although Antico argues this was “clear evidence” that

49a
the jury’s verdict was based upon “outside influences,”
that suggestion is an overstatement. All that the
juror’s email suggests is that some jurors felt that the
incident captured on video warranted accountability
for those involved, including for Antico. And Antico’s
argument does not make much sense because,
assuming the jurors had heard about the results of
the earlier joint trial, they would have known that
Michael Brown was convicted of deprivation of rights
under color of law, so they would not need to search
for “someone” to convict for the offense. In short,
Antico has not pointed to “clear, strong, substantial
and incontrovertible evidence” that the jury
considered extraneous prejudicial information,
Cuthel, 903 F.2d at 1383, so the district court did not
abuse its discretion in failing to investigate it further.
Antico also argues that the district court abused its
discretion in declining to compel the government to
disclose the contents of a conversation that a second
juror had with the spouse of an Assistant United
States Attorney. Antico argues that the contents of
this conversation are akin to Brady material and
should have been disclosed so that he could determine
whether any juror misconduct occurred, but we again
disagree.
Antico cites no authority, nor are we aware of any,
supporting the notion that we should extend Brady to
mandate the disclosure of post-verdict evidence that
might shed light on the nature of the jury’s
deliberations. Antico cites Rule 606(b), but even
under the standard for that rule, the district court
would abuse its discretion in failing to further

50a
investigate the matter only if Antico pointed to “clear,
strong, substantial and incontrovertible evidence”
that impropriety falling within one of the exceptions
occurred. Considering that Antico presented no
evidence other than the facts mentioned above, the
district court correctly ruled that Antico “fail[ed] to
present any evidence that impropriety has occurred,”
as his motions “simply state[d] that a juror spoke with
the wife of an [Assistant United States Attorney]
about his or her experience as a juror.”
Antico also argues that the cumulative effect of the
errors made his trial fundamentally unfair, but no
error occurred at his trial. So he cannot establish
cumulative error. See House, 684 F.3d at 1210
(“[W]here there is no error or only a single error, there
can be no cumulative error.”).
C. Brown and Antico Must Be Resentenced Because It
Is Unclear Whether, in Calculating Their Guideline
Ranges, the District Court Made a Factual Finding
Infected by Legal Error.
The government appeals the sentences of Brown and
Antico on the ground that the district court erred in
declining to use aggravated assault as the underlying
offense in calculating their guideline ranges. Section
2H1.1 of the Sentencing Guidelines provides the
standard for determining the base offense level for
Brown’s conviction for deprivation of rights under
color of law, 18 U.S.C. § 242: (a) Base Offense Level
(Apply the Greatest):

51a
(1) the offense level from the offense guideline
applicable to any underlying offense;
...
(3) 10, if the offense involved (A) the use or threat of
force against a person . . .
U.S.S.G. § 2H1.1(a). The Guidelines also provide that
the base offense level for Antico’s conviction for
obstruction of justice is the greater of 14, id. §
2J1.2(a), or, if the offense involved obstructing the
investigation or prosecution of a criminal offense, the
offense level calculated after applying a crossreference with respect to the criminal offense, id. §§
2J1.2(c), 2H1.1. The probation officer determined that
the underlying offense that produced the highest base
offense level for Brown’s and Antico’s guideline
calculations was aggravated assault, which was based
on Brown’s use of a Taser against J.B. See id. §§
2A2.2, 2H1.1(a)(1), 2J1.2(c)(1), 2X3.1. The Guidelines
define aggravated assault as, among other things, “a
felonious assault that involved . . . a dangerous
weapon with intent to cause bodily injury (i.e., not
merely to frighten) with that weapon.” Id. § 2A2.2
cmt. n.1. The Guidelines further define “bodily injury”
as “any significant injury; e.g., an injury that is
painful and obvious, or is of a type for which medical
attention ordinarily would be sought,” id. § 1B1.1 cmt.
n.1(B), and a “dangerous weapon” as “an instrument
capable of inflicting death or serious bodily injury,” id.
§ 1B1.1 cmt. n.1(E). Both parties agree that a Taser is
a “dangerous weapon,” so the remaining questions are
whether Brown used a Taser with the “intent to cause

52a
bodily injury” and whether the Taser was “involved”
in a “felonious assault.”
The district court determined that Brown’s use of a
Taser did not amount to aggravated assault because
there was “[s]ome evidence” suggesting that Brown
used the Taser “to gain compliance rather than to
cause bodily injury.” At Brown’s sentencing, the
district court mentioned and apparently credited
Officer Brown’s and Officer Ryan’s officer reports
stating that J.B. had refused loud verbal commands
before Brown used his Taser against him and that
J.B. had been reaching toward the center console at
that time. And the district court explained that it
interpreted Officer Monteith’s testimony to suggest
that he thought that Brown had not used his Taser
for the purpose of causing bodily injury. So the district
court ruled that “[t]here [was] insufficient evidence to
find by a preponderance of the evidence that Brown’s
intent in using the Taser was to cause bodily injury,
rather than to gain control over J.B.” At Antico’s
sentencing, the district court relied on this factual
finding in ruling that Antico’s underlying offense was
not aggravated assault.
As an initial matter, the government contends that
the district court’s finding of intent is “more akin to a
legal interpretation” of the Guidelines than a factual
finding and that it “warrants no deference from this
Court.” But we agree with our sister circuits that we
review a finding regarding whether a defendant acted
with the intent to cause bodily injury for purposes of
section 2A2.2 for clear error. See United States v.
White, 354 F.3d 841, 844 (8th Cir. 2004) (“We review

53a
the district court’s factual findings regarding [the
defendant’s] intended use of [a dangerous weapon for
purposes of section 2A2.2] for clear error.”); United
States v. Morris, 131 F.3d 1136, 1138 (5th Cir. 1997)
(applying a clear-error standard to a finding that the
defendant had an intent to cause bodily injury for
purposes of section 2A2.2). This review is consistent
with our ordinary treatment of a determination of
intent as a factual finding. See, e.g., United States v.
Bohannon, 476 F.3d 1246, 1251 (11th Cir. 2007)
(reviewing a finding of intent for clear error); United
States v. Vallejo, 297 F.3d 1154, 1162 (11th Cir. 2002)
(same).
The government argues that the district court erred
in determining that Brown lacked an intent to cause
bodily injury because a Taser is “designed” to inflict
bodily harm, so any intentional use of a Taser against
a suspect automatically satisfies the requirement for
“intent to cause bodily injury.” This argument ignores
that it is a question of fact for the district court to
determine whether a dangerous weapon is “involved”
in a “felonious assault.” U.S.S.G. § 2A2.2 cmt. n.1.
Here, for example, the district court could have found
that Brown’s use of punches and kicks was part of a
felonious assault but that the assault ended by the
time Brown used the Taser, at which time he
legitimately used the Taser to gain control over J.B.
In that case, the Taser would not have been “involved”
in a felonious assault, even if its application was close
in time to the assault. So even if the government is
correct that an officer’s intentional use of a Taser
against a suspect automatically entails “the intent to

54a
cause bodily injury”— which we do not decide—that
fact would not mean that the district court erred in
declining to use aggravated assault as the underlying
offense.
The government also contends that the district court
erred in failing to apply an objective test to determine
Brown’s intent, but this argument is unconvincing.
Even if we assume the government is correct that an
objective test applies, the district court cited
evidence—the accounts of Officers Brown and Ryan—
that could support an inference that Brown used the
Taser in response to J.B.’s refusal to exit the vehicle
and to his having reached toward the center console.
As the government admits, the question whether
Brown’s use of the Taser was lawful turns on whether
“that use of force [was] reasonable under the
circumstances.” So based on the district court’s
possible view of the evidence judged under an
objective standard of what a reasonable officer would
do in Brown’s place, one could view the district court’s
ruling as stating simply that there was an insufficient
basis to find that Brown’s employment of the Taser
was unreasonable.
The government next argues that the district court
clearly erred in ruling that Brown’s intention to bring
J.B. under control excluded the possibility that he
also intended to cause bodily injury. Brown responds
that the government’s “dual intent theory”—that
Brown could have intended both to cause bodily injury
and to gain control of J.B. at the time he used his
Taser—is subject to plain-error review because it was
not raised below. The government replies that we

55a
should review this argument de novo because it is a
new argument brought in support of a preserved
claim of error. We have held that to preserve an
objection to a sentencing determination, a party
“must raise that point in such clear and simple
language that the trial court may not misunderstand
it.” United States v. Massey, 443 F.3d 814, 819 (11th
Cir. 2006) (citation and internal quotation marks
omitted). But once a party has preserved an issue, it
may “make any argument in support of that claim;
parties are not limited to the precise arguments they
made below.” Yee v. City of Escondido, 503 U.S. 519,
534 (1992); see also Hi-Tech Pharm., Inc. v. HBS Int’l
Corp., 910 F.3d 1186, 1194 (11th Cir. 2018) (“Parties
can most assuredly waive or forfeit positions and
issues on appeal, but not individual arguments.”
(alterations adopted) (citation and internal quotation
marks omitted)). Because the government preserved
the specific ground for review implicated by its dualintent theory— namely, that Brown had the intent to
cause bodily injury at the time he used a Taser—it
may offer new arguments to support that position. See
Black v. Wigington, 811 F.3d 1259, 1268 (11th Cir.
2016) (“Although new claims or issues may not be
raised, new arguments relating to preserved claims
may be reviewed on appeal.” (quoting Pugliese v.
Pukka Dev., Inc., 550 F.3d 1299, 1304 n.3 (11th Cir.
2008)).
We also agree with the government that the record
leaves doubt about whether the factual finding was
infected by a legal error. The district court repeatedly
phrased its finding as being that the government

56a
failed to establish that “Brown’s intent in using the
Taser was to cause bodily injury, rather than to gain
control over J.B.” This language reflected Brown’s
“single-intent” theory that Brown’s intent was either
to cause bodily injury or to gain control, but not both.
Because a defendant can have more than one intent
and an officer can both intend to control a suspect and
also intend to cause him injury, it is legal error to
conclude that the presence of some evidence of an
intent to control necessarily excludes the possibility
that the defendant also acted with the intent to
injure. Based on this record, we have no way of
knowing whether the district court actually applied
this erroneous “single-intent” standard in finding
that Brown lacked the requisite intent.
If a district court applies an incorrect legal standard
in reaching a factual conclusion, the resulting finding
is not insulated by the clear-error standard. See
Holton v. City of Thomasville Sch. Dist., 490 F.3d
1257, 1261 (11th Cir. 2007) (“The clear-error standard
governs unless the district court ‘applies an incorrect
legal standard which taints or infects its findings of
facts.’” (quoting NAACP, Jacksonville Branch v.
Duval Cty. Sch., 273 F.3d 960, 965 (11th Cir. 2001)).
And vacatur and remand are warranted when “we
cannot say” whether an incorrect legal standard
“affect[ed] or influence[d] the district court’s [factual]
conclusion.” United States v. Kendrick, 22 F.3d 1066,
1069 (11th Cir. 1994). Because we are not sure that
the finding that Brown lacked the intent to cause
bodily injury is free from legal error, and this finding
caused the district court to decline to apply

57a
aggravated assault as the underlying offense, we
must vacate Brown’s sentence and remand for
resentencing. Because the district court relied on this
same factual finding in ruling that Antico’s
underlying offense was not aggravated assault, we
also vacate Antico’s sentence and remand for
resentencing.
IV. CONCLUSION
We AFFIRM the convictions of Brown and Antico,
VACATE their sentences, and REMAND for
resentencing.

58a
APPENDIX C
[Filed January 12, 2018]
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 9:17-cr-80102-ROSENBERG
UNITED STATES OF AMERICA,
v.
PHILIP ANTICO,
Defendant.
/
ORDER DENYING SERGEANT ANTICO’S
MOTIONS FOR JUDGMENT OF ACQUITTAL
AND FOR A NEW TRIAL
This Cause is before the Court on Sergeant Antico’s
Motion for Judgment of Acquittal, DE 203 & 218, and
Motion for a New Trial, DE 202 & 217. The
Government responded to both motions, DE 225, and
Sergeant Antico replied, DE 227. The Court hereby
denies Sergeant Antico’s Motions for Judgment of
Acquittal and for a New Trial.
I.

FACTS

59a
On August 20, 2014, members of the Boynton Beach
Police Department attempted to perform a traffic stop
of a vehicle. The driver of the vehicle did not stop the
car but instead lead the officers on a high-speed chase.
After the vehicle was stopped, several Boynton Beach
Police Officers used force against the occupants of the
vehicle. Some of the incident was caught on video by
a Palm Beach Sheriff’s Office (“PBSO”) helicopter.
Following the incident, the Boynton Beach Police
Officers each wrote a required officer report
describing the incident and submitted their reports to
Sergeant Antico, their supervising sergeant on duty.
After watching the PBSO video, Sergeant Antico
rejected some of these reports and the officers made
changes to add information that was not present in
their initial reports. Sergeant Antico accepted these
officers’ changed reports. On February 19, 2015,
Sergeant Antico met with the FBI and the
Government alleged that he misled the FBI regarding
these officers' reports. Specifically, the Government
alleged that Antico vouched for the credibility of the
officers and did not disclose that he had rejected
versions of their reports.
In a Superseding Indictment, Sergeant Antico was
charged with falsification of records (Counts Six and
Seven) and obstruction of justice (Count Eight).
Following a jury trial, Sergeant Antico was convicted
of Count Eight and was acquitted of Counts Six and
Seven.
II.
LEGAL STANDARDS

60a
The standard for a Federal Rule of Criminal
Procedure 29(c) Motion for Judgment of Acquittal is
as follows:
In considering a motion for the entry of a judgment of
acquittal, a district court must view the evidence in
the light most favorable to the government, and
determine whether a reasonable jury could have
found the defendant guilty beyond a reasonable
doubt. The prosecution need not rebut all reasonable
hypotheses other than guilt. The jury is free to choose
between or among the conclusions to be drawn from
the evidence presented at trial, and the district court
must accept all reasonable inferences and credibility
determinations made by the jury. The District Court's
determination that the evidence introduced at trial
was insufficient to support the jury's verdict of guilt
is [an] issue of law entitled to no deference on appeal.
United States v. Miranda, 425 F.3d 953, 959 (11th
Cir. 2005) (citation omitted).
The Court may grant a motion for a new trial “if the
interest of justice so requires.” Fed. R. Crim. P. 33.
The Eleventh Circuit has stated that:
The decision to grant or deny a new trial motion based
on the weight of the evidence is within the sound
discretion of the trial court. An appellate court may
reverse only if it finds the decision to be a clear abuse
of that discretion. While the district court's discretion
is quite broad, there are limits to it. The court may
not reweigh the evidence and set aside the verdict
simply because it feels some other result would be
more reasonable. The evidence must preponderate
heavily against the verdict, such that it would be a

61a
miscarriage of justice to let the verdict stand. Motions
for new trials based on weight of the evidence are not
favored. Courts are to grant them sparingly and with
caution, doing so only in those really “exceptional
cases.” Applying these principles, courts have granted
new trial motions based on weight of the evidence
only where the credibility of the government's
witnesses had been impeached and the government's
case had been marked by uncertainties and
discrepancies. United States v. Martinez, 763 F.2d
1297, 1312–13 (11th Cir. 1985) (citations omitted).
III. SUFFICIENCY OF THE EVIDENCE
In order to convict Sergeant Antico of obstruction of
justice in violation of 18 U.S.C. § 1512(b)(3), the jury
had to find the following elements: (1) the Defendant
knowingly engaged in misleading conduct toward
another person; (2) the Defendant acted with the
intent to hinder, delay, or prevent the communication
to a law enforcement officer of the United States of
information relating to the commission or possible
commission of an offense; and (3) the offense was a
federal offense. DE 184 at 18. In both his Motion for
Judgment of Acquittal and Motion for New Trial,
Sergeant Antico argues that the Government
presented insufficient evidence that he acted
knowingly and that he intended to mislead the
investigators when he stated that he had no concerns
about the credibility or accuracy of the officers;
rather, he argues that the evidence showed that
Sergeant Antico did not remember many of the details

62a
of the incident and that he offered to investigate the
answers to the FBI’s questions and report back. DE
218 at 2–4. The Government responds that a
reasonable jury could have concluded, and the
evidence does not preponderate heavily against a
finding, that Sergeant Antico made false statements
to the FBI in the February statement because
Sergeant Antico never revealed that the officers
submitted reports that failed to document their use of
force or that he rejected several reports. DE 225 at 9.
The Court agrees with the Government that, under
either the Rule 29(c) standard for judgment of
acquittal or the Rule 33 standard for a new trial, there
was sufficient evidence to find that Sergeant Antico
was guilty beyond a reasonable doubt. There was
sufficient evidence to conclude that Sergeant Antico
knowingly mislead the FBI when he did not disclose
that he had rejected several reports in quick
succession because the reports did not accurately
reflect the use of force that Sergeant Antico saw in the
PBSO video. Sergeant Antico also remembered other
details from the incident, including the original call
from the officer who attempted to stop the car, the
sequence of the chase, and being asked by the officers
if they could “take the car out.” See DE 225 at 10.
There was sufficient evidence to conclude that
Sergeant Antico’s memory of some details but not of
others demonstrates a knowing intent to mislead the
FBI. See United States v. Umbach, No. 16-11588, 2017
WL 3730525, at *6 (11th Cir. Aug. 30, 2017) (stating
that a jury was entitled to conclude based on
circumstantial evidence that defendant acted

63a
knowingly and was lying about what defendant did
and did not remember).
IV.

ALLEN CHARGE

In his Motion for a New Trial, Sergeant Antico argues
that the Court’s instruction on the Allen Charge was
unconstitutionally coercive. DE 217 at 2. Specifically,
Sergeant Antico objects to the portion of the Allen
Charge that reads:
This is an important case. The trial has been
expensive in time, effort, money, and emotional strain
to both the defense and the prosecution. If you fail to
agree on a verdict, the case will be left open and may
have to be tried again. Another trial would increase
the cost to both sides, and there is no reason to believe
that the case can be tried again by either side any
better or more exhaustively than it has been tried
before you.
This language came from the Eleventh Circuit
Pattern Jury Instructions and has been approved by
the Eleventh Circuit in various cases. See, e.g., United
States v. Chigbo, 38 F.3d 543, 544–45 (11th Cir. 1994).
Accordingly, the Court concludes that it was not
unduly coercive.
V.

CONCLUSION

It is therefore ORDERED AND ADJUDGED that:
1.
Sergeant Antico’s Motion for Judgment of
Acquittal [DE 203 & 218] is DENIED;

64a

2. Sergeant Antico’s Motion for a New Trial [DE 202
& 217] is DENIED.
DONE and ORDERED in Chambers, Fort Pierce,
Florida, this 12th day of January 2018.
ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE

65a
APPENDIX D
FEDERAL CIRCUIT COURT INSTRUCTIONS
TO A DEADLOCKED JURY
First Circuit
6.06 Charge to a Hung Jury
I am going to instruct you to go back and resume your
deliberations. I will explain why and give you further
instructions.
In trials absolute certainty can be neither expected
nor attained. You should consider that you are
selected in the same manner and from the same
source as any future jury would be selected. There is
no reason to suppose that this case would ever be
submitted to 12 men and women more intelligent,
more impartial or more competent to decide it than
you, or that more or clearer evidence would be
produced in the future. Thus, it is your duty to decide
the case, if you can conscientiously do so without
violence to your individual judgment.
The verdict to which a juror agrees must, of course, be
his or her own verdict, the result of his or her own
convictions, and not a mere acquiescence in the
conclusion of his or her fellow jurors. Yet, in order to
bring 12 minds to a unanimous result, you must
examine the questions submitted to you with an open

66a
mind and with proper regard for, and deference to, the
opinion of the other jurors.
In conferring together you ought to pay proper respect
to each other's opinions and you ought to listen with
a mind open to being convinced by each other's
arguments. Thus, where there is disagreement, jurors
favoring acquittal should consider whether a doubt in
their own mind is a reasonable one when it makes no
impression upon the minds of the other equally
honest and intelligent jurors who have heard the
same evidence with the same degree of attention and
with the same desire to arrive at the truth under the
sanction of the same oath.
On the other hand, jurors favoring conviction ought
seriously to ask themselves whether they should not
distrust the weight or sufficiency of evidence which
fails to dispel reasonable doubt in the minds of the
other jurors.
Not only should jurors in the minority re-examine
their positions, but jurors in the majority should do so
also, to see whether they have given careful
consideration and sufficient weight to the evidence
that has favorably impressed the persons in
disagreement with them.
Burden of proof is a legal tool for helping you decide.
The law imposes upon the prosecution a high burden
of proof. The prosecution has the burden to establish,
with respect to each count, each essential element of

67a
the offense, and to establish that essential element
beyond a reasonable doubt. And if with respect to any
element of any count you are left in reasonable doubt,
the defendant is entitled to the benefit of such doubt
and must be acquitted.
It is your duty to decide the case, if you can
conscientiously do so without violence to your
individual judgment. It is also your duty to return a
verdict on any counts as to which all of you agree,
even if you cannot agree on all counts. But if you
cannot agree, it is your right to fail to agree.
I now instruct you to go back and resume your
deliberations.

68a
Third Circuit
9.05 Deadlocked Jury - Return for
Deliberations
Members of the jury, I am going to ask you to return
to the jury room and deliberate further. I realize that
you are having some difficulty reaching unanimous
agreement, but that is not unusual. And often after
further discussion, jurors are able to work out their
differences and agree.
It is your duty, as jurors, to consult with one another,
and to deliberate with a view to reaching an
agreement if you can do so without violence to
individual judgment. Each of you must decide the
case for yourself, but do so only after an impartial
consideration of the evidence in the case with your
fellow jurors. In the course of your deliberations, do
not hesitate to re-examine your own views, and
change your opinion, if convinced it is erroneous. But
do not surrender your honest conviction as to the
weight or effect of evidence solely because of the
opinion of your fellow jurors, or for the mere purpose
of returning a verdict. Listen carefully to what the
other jurors have to say, and then decide for yourself
if the government has proved the defendant guilty
beyond a reasonable doubt.
What I have just said is not meant to rush or pressure
you into agreeing on a verdict. Take as much time as
you need to discuss things. There is no hurry.
With that instruction, I will return you to the jury
room. Thank you.

69a
Fourth Circuit
Allen Charge
In order to return a verdict, each juror must agree to
it.
You have a duty to consult with one another and to
deliberate with a view to reaching an agreement, if it
can be done without violence to the individual
judgment of each juror.
Each juror must decide the case for himself, but only
after an impartial consideration of the evidence with
his fellow jurors.
In the course of deliberations, a juror should not
hesitate to reexamine his own views and change his
opinion if convinced it was erroneous.
Each juror who finds himself in the minority should
reconsider his views in light of the opinions of the
majority, and each juror who finds himself in the
majority should give equal consideration to the views
of the minority.
No juror should surrender his honest conviction as to
the weight or effect of the evidence solely because of
the opinion of his fellow jurors, or for the mere
purpose of returning a verdict.

70a
Fifth Circuit
1.45 MODIFIED “ALLEN” CHARGE
Members of the Jury: I am going to ask that you
continue your deliberations in an effort to agree upon
a verdict and dispose of this case; and I have a few
additional comments I would like for you to consider
as you do so.
This is an important case. If you should fail to agree
on a verdict, the case is left open and may be tried
again.
Any future jury must be selected in the same manner
and from the same source as you were chosen, and
there is no reason to believe that the case could ever
be submitted to twelve men and women more
conscientious, more impartial, or more competent to
decide it, or that more or clearer evidence could be
produced.
Those of you who believe that the government has
proved the defendant guilty beyond a reasonable
doubt should stop and ask yourselves if the evidence
is really convincing enough, given that other
members of the jury are not convinced. And those of
you who believe that the government has not proved
the defendant guilty beyond a reasonable doubt
should stop and ask yourselves if the doubt you have
is a reasonable one, given that other members of the
jury do not share your doubt.

71a
Remember at all times that no juror is expected to
yield a conscientious opinion he or she may have as to
the weight or effect of the evidence. But remember
also that, after full deliberation and consideration of
the evidence in the case, it is your duty to agree upon
a verdict if you can do so without surrendering your
conscientious opinion. You must also remember that
if the evidence in the case fails to establish guilt
beyond a reasonable doubt, the accused should have
your unanimous verdict of Not Guilty.
You may be as leisurely in your deliberations as the
occasion may require and should take all the time
which you may feel is necessary.
I will ask now that you retire once again and continue
your deliberations with these additional comments in
mind to be applied, of course, in conjunction with all
of the instructions I have previously given to you.

72a
Sixth Circuit
9.04 DEADLOCKED JURY
(1) Members of the jury, I am going to ask that you
return to the jury room and deliberate further. I
realize that you are having some difficulty reaching
unanimous agreement, but that is not unusual. And
sometimes after further discussion, jurors are able to
work out their differences and agree.
(2) Please keep in mind how very important it is for
you to reach unanimous agreement. If you cannot
agree, and if this case is tried again, there is no reason
to believe that any new evidence will be presented, or
that the next twelve jurors will be any more
conscientious and impartial than you are.
(3) Let me remind you that it is your duty as jurors to
talk with each other about the case; to listen carefully
and respectfully to each other's views; and to keep an
open mind as you listen to what your fellow jurors
have to say. And let me remind you that it is your duty
to make every reasonable effort you can to reach
unanimous agreement. Each of you, whether you are
in the majority or the minority, ought to seriously
reconsider your position in light of the fact that other
jurors, who are just as conscientious and impartial as
you are, have come to a different conclusion.
(4) Those of you who believe that the government has
proved the defendant guilty beyond a reasonable

73a
doubt should stop and ask yourselves if the evidence
is really convincing enough, given that other
members of the jury are not convinced. And those of
you who believe that the government has not proved
the defendant guilty beyond a reasonable doubt
should stop and ask yourselves if the doubt you have
is a reasonable one, given that other members of the
jury do not share your doubt. None of you should
hesitate to change your mind if, after reconsidering
things, you are convinced that other jurors are right
and that your original position was wrong.
(5) But remember this. Do not ever change your mind
just because other jurors see things differently, or just
to get the case over with. As I told you before, in the
end, your vote must be exactly that--your own vote.
As important as it is for you to reach unanimous
agreement, it is just as important that you do so
honestly and in good conscience.
(6) What I have just said is not meant to rush or
pressure you into agreeing on a verdict. Take as much
time as you need to discuss things. There is no hurry.
(7) I would ask that you now return to the jury room
and resume your deliberations

74a
Seventh Circuit
7.03 UNANIMITY/DISAGREEMENT AMONG
JURORS
The verdict must represent the considered judgment
of each juror. Your verdict, whether it is guilty or not
guilty, must be unanimous.
You should make every reasonable effort to reach a
verdict. In doing so, you should consult with each
other, express your own views, and listen to your
fellow jurors’ opinions. Discuss your differences with
an open mind. Do not hesitate to re-examine your own
view and change your opinion if you come to believe it
is wrong. But you should not surrender your honest
beliefs about the weight or effect of evidence just
because of the opinions of your fellow jurors or just so
that there can be a unanimous verdict.
The twelve of you should give fair and equal
consideration to all the evidence. You should
deliberate with the goal of reaching an agreement
that is consistent with the individual judgment of
each juror.
You are impartial judges of the facts. Your sole
interest is to determine whether the government has
proved its case beyond a reasonable doubt.

75a
Eighth Circuit
10.02 DUTY TO DELIBERATE (“ALLEN”
CHARGE)
As stated in my instructions, it is your duty to consult
with one another and to deliberate with a view to
reaching agreement if you can do so without violence
to your individual judgment. Of course you must not
surrender your honest convictions as to the weight or
effect of the evidence solely because of the opinions of
other jurors or for the mere purpose of returning a
verdict. Each of you must decide the case for yourself;
but you should do so only after consideration of the
evidence with your fellow jurors.
In the course of your deliberations you should not
hesitate to re-examine your own views, and to change
your opinion if you are convinced it is wrong. To bring
twelve minds to a unanimous result you must
examine the questions submitted to you openly and
frankly, with proper regard for the opinions of others
and with a willingness to re-examine your own views.
Remember that if in your individual judgment the
evidence fails to establish guilt beyond a reasonable
doubt, then the defendant should have your vote for a
not guilty verdict. If all of you reach the same
conclusion, then the verdict of the jury must be not
guilty. Of course the opposite also applies. If in your
individual judgment the evidence establishes guilt

76a
beyond a reasonable doubt, then your vote should be
for a verdict of guilty and if all of you reach that
conclusion then the verdict of the jury must be guilty.
As I instructed you earlier, the burden is upon the
government to prove beyond a reasonable doubt every
element of the crime[s] charged.
Finally, remember that you are not partisans; you are
judges—judges of the facts. Your sole interest is to
seek the truth from the evidence. You are the judges
of the credibility of the witnesses and the weight of
the evidence.
You may conduct your deliberations as you choose.
But I suggest that you carefully [re]consider all the
evidence bearing upon the questions before you. You
may take all the time that you feel is necessary.
There is no reason to think that another trial would
be tried in a better way or that a more conscientious,
impartial or competent jury would be selected to hear
it. Any future jury must be selected in the same
manner and from the same source as you. If you
should fail to agree on a verdict, the case is left open
and must be disposed of at some later time.
Please go back now to finish your deliberations in a
manner consistent with your good judgment as
reasonable persons.

77a
Ninth Circuit
7.7 DEADLOCKED JURY
Members of the jury, you have advised that you have
been unable to agree upon a verdict in this case. I
have decided to suggest a few thoughts to you.
As jurors, you have a duty to discuss the case with one
another and to deliberate in an effort to reach a
unanimous verdict if each of you can do so without
violating your individual judgment and conscience.
Each of you must decide the case for yourself, but only
after you consider the evidence impartially with your
fellow jurors. During your deliberations, you should
not hesitate to reexamine your own views and change
your opinion if you become persuaded that it is wrong.
However, you should not change an honest belief as to
the weight or effect of the evidence solely because of
the opinions of your fellow jurors or for the mere
purpose of returning a verdict.
All of you are equally honest and conscientious jurors
who have heard the same evidence. All of you share
an equal desire to arrive at a verdict. Each of you
should ask yourself whether you should question the
correctness of your present position.
I remind you that in your deliberations you are to
consider the instructions I have given you as a whole.
You should not single out any part of any instruction,
including this one, and ignore others. They are all
equally important. You may now retire and continue
your deliberations.

78a
Tenth Circuit
1.42 MODIFIED ALLEN INSTRUCTION
Members of the jury, I am going to ask that you return
to the jury room and deliberate further. I realize that
you are having some difficulty reaching a unanimous
agreement, but that is not unusual. Sometimes, after
further discussion, jurors are able to work out their
differences and agree.
This is an important case. If you should fail to agree
upon a verdict, the case is left open and must be tried
again. Obviously, another trial would require the
parties to make another large investment of time and
effort, and there is no reason to believe that the case
can be tried again by either side better or more
exhaustively than it has been tried before you.
You are reminded that the defendant is presumed
innocent, and that the government, not the
defendant, has the burden of proof and it must prove
the defendant guilty beyond a reasonable doubt.
Those of you who believe that the government has
proved the defendant guilty beyond a reasonable
doubt should stop and ask yourselves if the evidence
is really convincing enough, given that other
members of the jury are not convinced. And those of
you who believe that the government has not proved
the defendant guilty beyond a reasonable doubt
should stop and ask yourselves if the doubt you have
is a reasonable one, given that other members of the

79a
jury do not share your doubt. In short, every
individual juror should reconsider his or her views.
It is your duty, as jurors, to consult with one another
and deliberate with a view toward reaching an
agreement, if you can do so without violence to
individual judgment. Each of you must decide the
case for yourself, but do so only after an impartial
consideration of the evidence with your fellow jurors.
In the course of your deliberations do not hesitate to
reexamine your own views and change your opinion if
you are convinced it is erroneous. But do not
surrender your honest conviction as to the weight or
effect of evidence solely because of the opinion of your
fellow jurors, or for the mere purpose of returning a
verdict.
What I have just said is not meant to rush or pressure
you into agreeing on a verdict. Take as much time as
you need to discuss things. There is no hurry.
I will ask now that you retire once again and continue
your deliberations with these additional comments in
mind to be applied, of course, in conjunction with all
of the instructions I have previously given you.

80a
11th Circuit
T-5 Modified Allen Charge
Members of the jury, I am going to ask you to continue
your deliberations in an effort to reach agreement on
a verdict. I have few additional comments that I
would like you to consider.
This is an important case. The trial has been
expensive in time, effort, money and emotional strain
to both the defense and prosecution. If you should fail
to agree on a verdict the case will be left open and may
have to be tried again. Another trial will increase the
cost to both sides, and there is no reason to believe that
the case can be tried again by either side better or more
exhaustively than it has been tried before you.
[Emphasis Added]
Any future jury must be selected in the same manner
and from the same source as you were chosen, and
there is no reason to believe that the case could ever
be submitted to twelve men and women more
conscientious, more impartial, or more competent to
decide it, or that more or clearer evidence could be
produced.
If a substantial majority of your number are in favor
of a conviction, those of you who disagree should
consider whether your doubt is a reasonable one since
it appears to make no effective impression on the
minds of others. On the other hand, if a majority or

81a
even smaller number of you are in favor of an
acquittal, the rest of you should ask yourselves again,
and most thoughtfully, whether you should accept the
weight and sufficiency of evidence which fails to
convince your fellow jurors beyond a reasonable
doubt.
Remember at all times that no juror is expected to
give up an honest belief he or she may have as to the
weight or effect of the evidence, but after full
deliberation and consideration of the evidence in the
case, you must agree upon a verdict if you can do so.
You must also remember that if the evidence fails to
establish guilt beyond a reasonable doubt, the
Defendant should have your unanimous verdict of not
guilty. You should not be in a hurry in your
deliberations and take all the time which you feel is
necessary. I ask you to retire again and continue your
deliberations with these additional comments in mind
and apply them in conjunction with the other
instructions I have previously given to you.

